      ADVISORY REPORT

 Costs Claimed by the State of Nevada,
   Department of Conservation and
     Natural Resources, Division of
  Wildlife, Under Federal Aid Grants
    from the U.S. Fish and Wildlife
  Service from July 1, 1996 through
             June 30, 1998




FEBRUARY 2003      Report No. 2003-E-0018
                                                                          X-GR-FWS-0035-2003


                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                                                               February 26, 2003

                                ADVISORY REPORT
Memorandum

To:      Director
         U.S. Fish and Wildlife Service

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Final Advisory Report on Costs Claimed by the State of Nevada, Department of
         Conservation and Natural Resources, Division of Wildlife, Under Federal Aid Grants
         from the U.S. Fish and Wildlife Service from July 1, 1996 through June 30, 1998
         (No. 2003-E-0018)

                                       Introduction
       This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Nevada Department of Conservation and
Natural Resources, Division of Wildlife (Division), under Federal Aid grants from the U.S. Fish
and Wildlife Service (FWS) from July 1, 1996 through
June 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to states to enhance their sport fish and wildlife programs. The
Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred under
the grants. Additionally, the Acts specify that state hunting and fishing license revenues cannot
to be used for any purpose other than the administration of the state’s fish and game agencies. In
addition, FWS also provides grants to the states under the Clean Vessel Act and the Endangered
Species Act.

       In August 2001, another audit agency drafted a report on its audit of FWS Federal Aid
program grants awarded to the State of Nevada for fiscal years 1997 and 1998. The scope of the
work to be performed by the audit agency, as stated in its announcement letter to the Division,
was to evaluate (1) the adequacy of the State’s purchasing system and related internal controls,
(2) the adequacy and reliability of the State’s license fees collection and disbursement system,
(3) the adequacy of the State’s accounting system as it relates to the accumulation and reporting
of costs charged to grants, and (4) the accuracy and eligibility of direct costs claimed on grants.
The audit was also to include an analysis of other issues considered to be sensitive and/or
significant to FWS. The audit work at the Division covered claims totaling approximately
$28.3 million on FWS grants that were open during the Division’s fiscal years ending June 30,
1997 and 1998 (see Appendix 1). However, the audit agency’s agreement with FWS expired
before completion of the draft report and no report was provided to the Division or FWS.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued and the audits were in various stages of the audit and
reporting processes. The audit agency indicated in a September 28, 2001 memorandum that its
supervisors had not reviewed the working papers for the Nevada audit to ensure that
(1) sufficient, competent and relevant evidence was obtained, (2) evidential matter contained in
the working papers adequately supported the audit findings in the report, and (3) sound auditing
techniques and judgment were used throughout the audit.

       On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Agreement. We did not perform any additional audit work of the
Division’s records, and the limited work performed under these procedures does not constitute
an audit by the OIG in accordance with Generally Accepted Government Auditing Standards.

       Significant findings impacting Nevada’s administration of the Federal Aid program are
presented in the body of the report and other management issues are presented in Appendix 2.

                                     Results of Review
       The results of our review of the working papers identified the following:

       •   The Division had not yet used for program purposes revenues totaling $590,000 (plus
           accrued interest) received in 1994 from the sale of land ($380,000) and water rights
           ($210,000) initially acquired with Federal Aid assistance. The grant agreements
           identified specific priorities for the use of these revenues.

       •   The Division had not reported program income of $17,956 that should have been
           used to reduce program costs.




                                                 2
       •   Costs totaling $1,009,890 were questioned relative to excessive cumulative transfers
           of funds among projects in consolidated grants, including transfers to projects not
           included in the grant agreements ($517,808); claims against closed grants ($359,611);
           indirect cost charges for in-kind match ($106,836) and for computer purchases
           ($1,891); and costs incurred outside the grant period ($23,744).

       •   The Division did not recover interest applicable to an erroneous Division drawdown
           of Federal Aid funds made for the Division of State Parks. Although Parks repaid the
           principal to the Division which was subsequently repaid the U.S. Treasury, Parks still
           owed the Division and the U.S. Treasury about $3,765 for the related interest.

       •   The Division contrary to requirements relinquished administrative control over real
           property acquired with Federal Aid funds.

       •   The Division’s time keeping practices did not ensure that labor costs charged to
           Federal Aid grants were proper and did not provide sufficient detail on labor cost
           charges of law enforcement staff to ensure that license revenues were not used for
           ineligible activities.

       •   The grant proposals and agreements had not adequately disclosed the Division’s
           intent to use in-kind contributions to meet its grant matching requirements, and the
           basis for the valuation of some in-kind contributions was not sufficiently
           documented.

       •   The Division’s accounting system did not provide necessary budgetary and
           accounting detail at the grant project level and did not ensure that accounting
           adjustments impacting Federal Aid grants were adequately documented and justified.

A. Sale of Real Property

         The working papers indicated that the Division had not yet used a total of $590,000
received from the sale of land and well water rights at the Scripps Wildlife Management Area
(WMA). In April 1994, the Division sold 260 acres for $380,000 to the Nevada Division of
State Parks for inclusion in a state park because of encroachment of development and increased
use of non-wildlife recreational activities in the wildlife management area. At the same time, the
Division sold the rights for 700 acre feet of well water for $210,000 to the Nevada Department
of Transportation for use as a mitigation wetland project. According to the grant agreements, the
Division was required to use these funds “in the following priority: (1) purchase of replacement
wetlands or water rights for the P/R (Pittman Robinson Wildlife Restoration) W-55 Program,
(2) utilization in the annual P/R W-55 Program budget, or (3) utilization within any program of
the P/R Act.” In addition, the Code of Federal Regulations (50 CFR 80.14(b)(1)) requires the
Division to replace property that passes from the Division’s control with property of equal value
at current market prices within 3 years of the FWS regional director’s notification to do so
“before becoming ineligible.” However, as of June 30, 1999, the Division had not used the
proceeds from the sales and had not accrued interest on the unused revenue.



                                                3
Recommendation

        We recommend that FWS ensure the Division uses the Federal share of the real property
sales proceeds and related interest for program purposes as provided for in the grant agreements
or reimburse the funds to the FWS.

Division and U.S. Fish and Wildlife Service Responses

       Division officials stated that they have obtained FWS approval to expend the Federal
share of these monies, along with the associated interest, for program purposes on wildlife
management areas. Division officials further stated that detailed documentation was provided to
show that these monies were expended by June 30, 2002 on Grant FW-4-D.

        FWS officials concurred with the Division’s actions and stated that, “The State has
provided documentation ensuring that the Federal share of the real [property] sales proceeds and
related interest has been used for program purposes only.”

Office of Inspector General Comments

       The responses are sufficient to consider the recommendation resolved and implemented.

B. Program Income and Other Receipts

      The working papers identified unreported program income and other receipts totaling
$17,956, as summarized below:

                                  Grant Number                  Amount
                       FW-4-D-3 (grazing fees)                    $5,677
                       FW-4-D-3 (equipment usage charges)          7,496
                       F-32-D-6                                    3,212
                       F-32-D-7                                    1,571
                                      Total                      $17,956

       1. Grant FW-4-D-3 ($13,173).

               (a) Grazing Fees. The Code of Federal Regulations (43 CFR 12.65(b)) defines
program income as “gross income received by the grantee directly generated by a grant
supported activity, or earned only as a result of the grant agreement during the grant period.”
Part 12.65 (g)(1) further provides that “Ordinarily program income shall be deducted from total
allowable costs to determine the net allowable costs.” The working papers identified program
income of $5,677 from fees generated from a grazing lease at the Humbolt WMA, which was
one of several management areas funded under this grant.



                                                4
               (b) Equipment Usage Charges. In fiscal year 1997, the Department received a
grant from the Federal Emergency Management Agency (FEMA) for flood recovery work at the
Mason Valley WMA. The working papers indicated that the Division received reimbursement
of $97,518, of which $7,496 was for usage charges for equipment that had been purchased with
Federal Aid funds. The Code of Federal Regulations (43 CFR 12.72) allows grantees to use
equipment acquired under a grant for other projects and programs and provides for user fees if
considered appropriate. In addition, Part 12.65 of the regulation includes fees from the use of
equipment as program income to be deducted from program outlays.

       2. Grant F-32-D-6 ($3,212).

       The working papers identified miscellaneous income of $3,212 recorded from July 1996
through June 1997 under “revenue account code” 9913 which was labeled in the working papers
as “Project Income F-32”. The working papers did not clearly identify the composition of the
income sources but the amount appears to include an electric company credit of $1,116 that
should have been used to offset grant costs.

       3. Grant F-32-D-7 ($1,571).

       The working papers identified miscellaneous income of $1,571 recorded under the same
revenue account code 9913. This amount also appears to be a credit from an electric company
under this grant number, which should have been used to offset grant costs.

Recommendation

        We recommend that FWS resolve the $17,956 of unreported program income and other
receipts.

Division and U.S. Fish and Wildlife Service Responses

        Division officials stated that program income is one of the areas in which the Division
has improved on its reporting. The officials stated that they verified the claim that program
income was under reported and found that total unreported income was $16,999, which is $957
less than the amount shown in the report. Nevertheless, Division officials stated that they will
work with FWS to resolve this finding.

       FWS officials stated that they concur with the finding and recommendation.

Office of Inspector General Comments

       We compared the working papers with the analysis of program income included in the
Division’s response. The Division identified program income not included in the working
papers and made two minor adjustments, with which we concurred. However, the Division also
applied certain unreported program income to grants different than the grants that the audit
agency had applied the income to, as discussed below:



                                                5
        Regarding Grant FW-4-D-3, the working papers identified unreported program income
totaling $13,173, while the Division’s response indicated that the actual amount was $15,490
(recorded revenues of $25,886 less the $10,396 reported on the Financial Status Report.) We
agree with the Division’s analysis, with one possible exception: while the Division’s recorded
revenues included $2,096 for “Rent/Utilities,” the working papers indicated that this amount was
related to Grant F-32-D-6. The FWS needs to determine whether the Division’s analysis is
correct or whether the $2,096 relates to the other grant, which would reduce the unreported
program income for Grant FW-4-D-3 to $13,394 ($15,490 less $2,096).

         Regarding Grant F-32-D-6, the working papers identified unreported income and other
receipts totaling $3,212, while the Division’s response indicated that the underreported amount
was only $1,593 (recorded revenues of $11,043 less the $9,450 reported on the Financial Status
Report). We agree with the Division’s analysis, with one possible exception: as discussed
above, the working papers identified revenues of $2,096 for “Rent/Utilities” related to this grant,
while the Division’s analysis indicated that these revenues related to Grant FW-4-D-3. The
FWS needs to determine whether the Division’s analysis is correct or whether the $2,096 relates
to this grant, which would increase the unreported program income for Grant F-32-D-6 to $3,689
($1,593 plus $2,096).

        Regarding Grant F-32-D-7, the working papers identified unreported receipts of $1,571,
while the Division’s response indicated that program income was over-reported by $85 ($11,856
reported on the Financial Status Report less recorded income of $11,771). We agree with the
Division’s analysis, with one possible exception: the working papers identified program income
of $2,281 applicable to this grant, while the documentation provided by the Division indicated
that this amount was applicable to Grant FW-4-D-4. The FWS needs to determine whether the
Division’s analysis is correct or whether the income is related to this grant, which would result in
unreported income of $2,196 for Grant F-32-D-7 ($2,281 less $85).

        We consider the recommendation unresolved. FWS needs to identify what action will be
taken to resolve the unreported program income in its Corrective Action Plan.

C. Questioned Costs

        The working papers identified questioned costs of $1,009,890 (Federal share $757,422)
related to excessive cumulative transfers of funds among projects in consolidated grants,
including transfers to projects not included in the grant agreements ($517,808); claims against
closed grants ($359,611); indirect costs for in-kind match ($106,836) and for computer
purchases ($1,891); and costs incurred outside the grant period ($23,744).

        1. Project Level Accounting. Consolidated grants provide funds for multiple projects
under a single grant with each project having a separate budget. The Code of Federal
Regulations (43 CFR 12.70 (a)) requires that “unless waived by an awarding agency, certain
types of post award changes in budgets and projects shall require the prior written approval of
the awarding agency.” Part 12.70(c)(ii) of the regulation requires such approval if “cumulative
transfers among . . . separately budgeted…projects . . . exceed or are expected to exceed ten
percent of the current total approved budget, whenever the awarding agency’s share exceeds


                                                 6
$100,000.” Based on our review of the working papers, we identified two grants where the
cumulative transfers exceeded the 10 percent threshold and the Division did not have prior
written approval from FWS. The cumulative transfers totaled $517,808 (Federal share
$388,357), as follows:

                                                      Cumulative Transfers
                         Grant         Grant          Questioned   Federal
                        Number        Amount            Costs       Share
                       F-20-32       $1,629,100        $209,206   $156,905
                       F-20-33        1,424,334         308,602    231,452
                         Total       $3,053,434        $517,808   $388,357

       The questioned amount includes $195,770 charged to Grants F-20-32 ($117,190) and
F-20-33 ($78,580) for activities that were not specifically provided for in the grant agreements.
These costs were charged to projects that did not correspond to the approved projects listed in
the grant agreements.

        2. Claims Against Closed Grants. Costs totaling $359,611 (Federal share $269,709)
were questioned because the Division claimed additional costs on Grants W-58-D-8 ($290,781)
and W-48-R-27 ($68,830) more than 90 days after filing the final Financial Status Reports for
these grants. The Code of Federal Regulations (43 CFR12.81 (b)(4)) requires the Division to
submit a final Financial Status Report within 90 days after the expiration of the grant. The
regulations (43 CFR 12.90) also state “The Federal agency will, within 90 days after receipt of
reports (including the Financial Status Report) in paragraph (b) of this section, make upward or
downward adjustments to the allowable costs.” In addition, while Part 12.91 of the regulation
states “The closeout of a grant does not affect (a) The Federal agency’s right to disallow costs
and recover funds on the basis of a later audit or other review,” it does not provide for the
grantee to submit additional claims after the 90-day period.

         The Division had filed the required final Financial Status Reports for both grants in
January 1998 (the report for Grant W-58-D-8 was 4 months late and the report for Grant
W-48-R-27 was 16 months late). However, in May 1999, 16 months after the January 1998
filing, the Division filed revised reports claiming additional grant costs of $359,611. The
working papers indicated that the Division had obtained FWS approval prior to reopening the
grants and noted that one reason for reopening the grants may have been that costs for some
projects had not been included in the previous drawdowns.

        3. Ineligible Indirect Costs. The working papers identified ineligible indirect costs
totaling $108,727 related to in-kind contributions ($106,836) and computer equipment purchases
($1,891).

               (a) In-Kind Costs. Costs totaling $106,836 (Federal share $80,129) were
questioned because the Division improperly claimed indirect costs on some of the in-kind
contributions reported in its final Financial Status Reports for nine grants. Office of



                                                  7
Management and Budget (OMB) Circular A-87 Attachment E, Parts B and C indicate that the
base used to allocate indirect costs must be consistent with the base selected for developing the
indirect cost rate. The working papers noted the Division did not include in-kind contributions
in the direct cost base used to calculate the indirect cost rates for fiscal years 1997 and 1998 and
therefore, should not have claimed indirect costs on these contributions. The questioned costs
are summarized as follows:

                                  Grant         Questioned     Federal
                                Agreement         Costs         Share
                             F-20-32             $10,562        $7,922
                             F-20-33               9,670         7,253
                             F-30-AE-8            13,992        10,494
                             F-30-AE-9            22,737        17,053
                             W-48-R-29               979           734
                             W-51-HS-26           14,274        10,706
                             W-51-HS-27           29,289        21,967
                             W-58-D-8                239           179
                             FW-4-D-4              5,094         3,821
                                 Total          $106,836       $80,129

               (b) Computer Equipment. Costs totaling $1,891 (Federal share $1,419) were
questioned because the Division allocated indirect costs to three computer equipment purchases
totaling $9,746. Charging indirect costs on these purchases was improper because all equipment
costs were excluded in the base used to calculate the indirect cost rates for fiscal years 1997 and
1998. These charges occurred because the Division included computer equipment in the
information services cost category (No. 26) rather than in the equipment category (No. 5) and
applied the indirect cost rate to all costs recorded in the information services category. The
questioned amount was based on a sample of 72 tested transactions and calculated by applying
the 19.4 percent indirect cost rate to the misclassified charges. The auditors concluded, however,
that additional work to identify the total improper charges was not necessary because the total
cost in the information services category for the two years was only $51,469 and only a portion
of that amount was for computer equipment. The questioned costs are summarized as follows:

                                 Grant         Questioned     Federal
                               Agreement         Costs         Share
                              F-20-32             $961           $721
                              W-48-R-28            930            698
                                  Total          $1,891        $1,419

     4. Out-of-Period Costs. Costs totaling $23,744 (Federal share $17,808) were questioned
because the costs were incurred prior to the time period covered by the grant agreement segment
to which the costs were charged. The Code of Federal Regulations (43 CFR 12.63(a)) states that


                                                  8
a grantee may charge to the award only costs resulting from obligations of the funding period.
During fiscal year 1998, the Division charged Grant F-20-33 (which began on July 1, 1997) for
two invoices ($18,293 and $5,451) received from the University of Nevada, Reno for contractual
work performed from April 1 through June 30, 1997 under Grant F-20-32. The fiscal year 1997
contract with the University was not renewed for fiscal year 1998 and there was no evidence that
FWS had authorized the Division to charge these costs to the 1998 grant.

Recommendations

     We recommend that FWS:

     1. Resolve the $517,808 of questioned costs related to project level accounting

     2. Resolve the $359,611 of questioned costs related to closed grants.

     3. Resolve the $108,727 of questioned costs related to inappropriate indirect cost charges.

     4. Resolve the $23,744 of questioned costs related to out-of-period charges.

Division and U.S. Fish and Wildlife Service Responses

       Division officials responded to each of the recommendations as follows:

        1. Project Level Accounting. The officials stated that “Shifting costs among approved
projects was allowed by the USFWS at the time as they waived the 10% rule. This practice was
corroborated by USFWS officials during conference calls regarding the audit report.”

        FWS stated that they have the authority to waive requirements with post award changes
in project budgets and as such, did not concur with the finding and recommendation.

        2. Claims Against Closed Grants. Division officials stated that they obtained FWS
approval prior to reopening the grants. They added that, “It is not uncommon, based on the
entities contracted with, for the agency to receive stale claim billings for services after the grant
was closed.”

        FWS indicated in its response that it does not agree with the finding, and stated, “The
State had provided documentation that verifies that the Service approved this activity.”

       3. Ineligible Indirect Costs. Division officials stated that they could not provide a
response to the amounts shown as ineligible indirect costs relating to in-kind costs and that the
claim for indirect costs for computer equipment was an “inadvertent oversight” that will be
avoided in the future.

       FWS concurred with the finding and recommendation regarding indirect costs.




                                                  9
       4. Out-of-Period Costs. Division officials stated that, “Because the expenditure,
received as a stale claim from the University System, was received by the agency after the close
of grant for 1997 the FWS allowed this to be charged to the 1998 grant.”

      The FWS agreed with the State’s position and stated, “The State has provided
documentation that verifies that the Service approved this activity.”

Office of Inspector General Comments

The responses from FWS and the Division were not sufficient to consider the recommendations
resolved. Our comments follow.

        1. Project Level Accounting. Although FWS stated it “has the authority to waive
requirements with post award changes in project budgets,” neither the auditor’s working papers
nor the responses from the Division or FWS provided documentation that FWS had provided a
written waiver of the requirement. With regard to the finding that the Division charged
$195,770 for activities that were not specifically provided for in the grant agreements, the
Division provided extensive documentation to support the eligibility of these costs. The FWS
response did not indicate whether FWS had reviewed this documentation and found it to be
adequate.

        2. Claims Against Closed Grants. Although FWS disagreed with the finding, the
response did not identify (a) the basis for allowing the Division to reopen these grants,
(b) whether FWS had determined that the additional costs claimed were allowable and applicable
to the grant, or (c) the source of funds used to reimburse these additional costs (since the grants
had already been closed out).

        3. Ineligible Indirect Costs. Regarding the Division’s comment on the development of
the indirect cost rates, those rates were approved in February 1999 and, according to the indirect
cost rate agreement, were applicable to the fiscal years covered by the audit. Although FWS
concurred with the recommendation, its response did not identify a course of action to recover
the questioned costs.

        4. Out-of-Period Costs. Although the FWS response stated, “The State has provided
documentation that verifies that the Service approved this activity,” the Division’s response did
not include documentation showing that FWS had approved the charging of these costs to the
subsequent grant. As part of the Corrective Action Plan, we suggest that FWS request the
Division to establish controls to ensure that all grant-related costs have been identified before
submitting final Financial Status Reports.




                                                10
D. Interest on Advance Drawdown

      Under a cooperative agreement with the Division, the Nevada Division of State Parks
(Parks) was responsible for managing the boat access project under Grant F-27-B-5. The
Division incorrectly transferred funds of $111,563 to Parks based on an invoice submitted prior
to the startup of the project. This amount was included in the monthly cost accounting report
that was used as the basis for the June 16, 1997 drawdown of Federal Aid funds. The Division
discovered this error and, on December 19, 1997, reimbursed the U.S. Treasury for the full
amount, excluding interest. The Code of Federal Regulations (31 CFR 205.12(a)) provides
“A State will incur an interest liability to the Federal Government if Federal funds are in a State
account prior to the day the State pays out funds for program purposes.” According to the
working papers, the U.S. Treasury rate at the time was 6.75 percent. Therefore, according to the
working papers, the Division owed the Sport Fish Restoration Program approximately $3,765.
The working papers also noted that the Division was attempting to recover this amount from
Parks.

Recommendation

       We recommend that FWS ensure that the Department reimburses the Sport Fish
Restoration Program for interest applicable to the advanced payment.

Division and U.S. Fish and Wildlife Service Responses

       Division officials stated that, “We are currently investigating this matter with State Parks
Division.” FWS officials agreed with the finding.

Office of Inspector General Comments

      Since the Division is still in the process of investigating the finding, we consider the
recommendation unresolved.

E. Control Over Real Property

        The working papers concluded that the Division had allowed control over real property
acquired with Federal Aid funds to pass to Parks. The Code of Federal Regulations (50 CFR
80.14(b)(1)) states that when property acquired with Federal Aid funds “passes from
management control” of the (local) fish and wildlife agency, the control must be restored or “the
real property must be replaced using non-Federal Aid funds.” When the audit agency staff
visited the property, now Cave Lake State Park, they discovered it was under the control of
Parks.

        In 1968, FWS awarded Grant F-22-L-2 to the Division to acquire three tracts of land at a
total cost of $304,000, with $104,000 relating to the Cave Lake property. The grant agreement
indicated that the cost of the Cave Lake property was to be shared by FWS ($78,000) and the
State ($26,000) with the balance of $200,000 for the other tracts coming from local funds and



                                                11
contributions. In July 1973, the Division entered into a cooperative agreement with Parks,
amended in June 1990, which gave Parks effective operational control over the property.
Although the amended agreement generally provides that Parks would manage, operate, and
maintain the property, it also provides for annual meetings between the Division and Parks to
discuss the management of the property. According to the working papers, however, a Division
official stated that these meetings were informal and no records of the meetings were provided.
During their visit to the property, the agency auditors discovered that the property was publicly
designated as the Cave Lake State Park and had been extensively developed with campgrounds,
picnic areas, restroom, and boat launching facilities, a dump station, two residences for state park
employees, and a park office used to collect fees and sell souvenirs. The working papers
indicated that the auditors did not compute a questioned cost amount because they could not
obtain any information about the current fair market value of the property.

Recommendation

        We recommend that FWS determine if the Cave Lake property is still serving the purpose
for which it was acquired and whether the Division’s control over the property can be effectively
restored. If not, then FWS should determine whether the Division should sell the property to
Parks and use the revenue to replace the property.

Division and U.S. Fish and Wildlife Service Responses

        Division officials stated that the Cave Lake property is still serving the purpose for which
it was acquired and that the Division “still effectively maintains control over the property” as
detailed in the draft Scope of Cooperative Action between the Division and the Nevada State
Division of Parks. This draft document spells out the management responsibilities of both
divisions as well as mutual responsibilities. Division officials further stated that, “Management
of the site, as the records clearly show, is an ongoing working relationship between the
representatives of both agencies (Wildlife and Parks) and the Wildlife Division has not ‘de facto’
relinquished either short-term or long-term control of the property.”

        FWS concurred with the finding and stated that, “The Service recommends the Nevada
Division of Wildlife execute the Scope of Cooperative Agreement with the Division of Parks to
satisfy this finding.”

Office of Inspector General Comments

      The responses were sufficient to consider the recommendation resolved but not
implemented.

F. Labor Reporting System

       The working papers identified deficiencies in the Division’s labor reporting system,
timekeeping practices, and related internal controls for the accumulation and reporting of labor
costs under Federal Aid grants. The working papers also concluded that the system did not



                                                 12
distribute law enforcement labor costs in sufficient detail to separately identify the costs eligible
for payment from license revenue from those costs that were ineligible.

        The working papers included interviews with 27 Division employees in five program
areas that identified the following issues:

       •   Office of Management and Budget (OMB) Circular A-87, Attachment B, 11.h. (4)
           requires employees who work on multiple activities to maintain personnel activity
           reports to support the distribution of their salaries or wages and Section 11.h. (5)
           requires that reports reflect an after-the-fact distribution of the actual activity of the
           employee. The working papers indicated that (1) two employees charged or had been
           directed to charge time to a different grant than the one which they had been working
           on and (2) at least 11 employees charged time to grants while performing ineligible
           activities such as establishing, publishing or distributing state regulations; performing
           law enforcement activities; or removing nuisance animals. The employee interviews
           also indicated that 15 of the employees were unaware of or could not identify the
           tasks that were ineligible for Federal Aid funding. The working papers stated that the
           auditors did not attempt to quantify the extent of this issue because of the extensive
           audit effort that would have been required.

       •   Section C.1.f. of Attachment A of Circular A-87 states that, “A cost may not be
           assigned to a Federal award as a direct cost if any other cost incurred for the same
           purpose in like circumstances has been allocated to the Federal award as an indirect
           cost.” The working papers indicated that some employees stated that they charged
           time associated with general meetings and general training to grants while others said
           they charged their time for these activities to a code that was used in the indirect cost
           rate calculations. The working papers also stated that the auditors did not attempt to
           quantify the extent of the issue because of the time that would have been required.

       •   Twenty-one employees said that they were unaware of written instructions relating to
           timekeeping practices.

        The working papers also concluded that the labor system did not provide information on
the labor costs incurred by Law Enforcement Branch staff on various activities. Although the
accounting system was capable of collecting this data, the needed information was not coded on
the employee attendance reports or input into the accounting system. Therefore, the Division did
not have the information needed to identify any potential use of license revenues for ineligible
activities.

Recommendation

        We recommend that FWS ensure that the Division corrects the deficiencies in its labor
reporting system.




                                                  13
Division and U.S. Fish and Wildlife Service Responses

        Division officials stated that they have provided training at least annually on timekeeping
practices that include the appropriate method for completing and coding timesheets. The
response further stated that Division employees have been instructed on the basic overall theory
of how indirect cost rates are formulated and that there is no such thing as “account codes which
are specifically used in the indirect rate calculations.” Division officials also stated that direct
cost centers for administrative time and expense were established for each bureau in 2000 and
have been utilized since.

       FWS concurred with the audit finding and recommendation. FWS stated that, “The State
has provided documentation that specifically addresses this finding. No further action is
necessary.”

Office of Inspector General Comments

      The responses were sufficient to consider the recommendation resolved and
implemented.

G. In-Kind Contributions

       The working papers indicated that the Division had not fully complied with the Code of
Federal Regulations (43 CFR 12.64) or its own policies and procedures pertaining to
documentation requirements and the valuation of in-kind contributions used to meet the State
matching requirements for the grants. Specifically:

       •   The Division’s grant proposals and grant agreements for fiscal years 1997 and 1998
           did not consistently identify the type and expected value of in-kind contributions as
           required on the “Application for Federal Assistance” form. Except for the hunter
           education and aquatic education grants, the grant documents in the working papers
           included only statements that some in-kind match may be provided as part of the
           state’s match.

       •   The regulations (43 CFR 12.64 (c)(1)) state that unpaid services provided by
           individuals will be valued at rates consistent with those ordinarily paid for similar
           work in the grantee’s organization. The working papers indicated that volunteer
           hours were valued at various rates, ranging from $12.69 to $35.55 per hour, none of
           which were specified in the Division’s policies and procedures. In addition, the
           Division had not adequately documented how the rates were developed. However,
           the working papers did not include an analysis or other calculation of the potential
           monetary impact on the Federal Aid grants.

       •   The documentation supporting in-kind contributions did not include volunteers’
           signatures for the hours contributed. The regulations (43 CFR 12.64 (b)(6)) state that,
           to the extent feasible, grantees should use the same methods as their own organization



                                                 14
           uses to support regular personnel costs. The Division’s methods require employees
           to sign their time reports.

       •   The Division did not have adequate documentation to support in-kind contributions
           provided by a subgrantee (the University of Nevada, Reno) and had not performed
           any reviews of the validity of the University’s reported in-kind contributions. The
           regulations (43 CFR 12.64 (b)(6)) require that in-kind contributions counting toward
           satisfying a matching requirement must be verifiable from the records of subgrantees
           and that the records must show how the values were derived. The Division awarded a
           contract to the University for $77,500 for Mountain Quail Research and reported
           $25,800 as an in-kind contribution on its Financial Status Report for Grant
           W-48-R-29. However, the Division had no explanation or document in its files
           supporting the validity and valuation of the in-kind contribution. In response to the
           auditors’ request for documentation, the University provided a letter stating that the
           $30,000 contribution consisted of the non-federal salary of a University graduate
           advisor who supervised the individual who performed the fieldwork on this project.
           The letter also noted that University quail-holding facilities, office space, and other
           resources were also provided and the University’s contribution substantially exceeded
           the $30,000. No other documentation was provided showing the hours worked and
           the rates used. However, the working papers did not identify any questioned costs.

Recommendation

       We recommend that FWS ensure that the Division complies with the regulations and its
own policies and procedures regarding the documentation and valuation requirements for in-kind
contributions.

Division and U.S. Fish and Wildlife Service Responses

        The Division stated that a staff member was assigned as a “volunteer coordinator” in
1999. The duties included not only recruiting volunteers, but also increasing the number of
projects benefiting the state’s wildlife resources. Division officials further stated that the
coordinator developed an initial database, contracts for volunteers to sign, and a Policy and
Procedures Manual. In addition, Division officials stated that the “new program” will continue
to evolve based on lessons learned and new requirements and needs of the Division.

       FWS concurred with the finding and recommendation and stated, “The State has
provided documentation that specifically addresses this finding. No further action is necessary.”

Office of Inspector General Comments

       The response from the Division was sufficient to consider the recommendation resolved
and implemented.




                                               15
H. Accounting System

        The working papers identified deficiencies in the Division’s accounting system and
related internal controls for accumulating, reconciling, and reporting of costs on Federal Aid
grants. Specifically, (1) the Division’s cost accounting system did not provide necessary
budgetary and accounting detail at the grant project level and (2) accounting adjustments
impacting grants were inadequately documented and justified.

        1. Cost Accounting System. The Division’s cost accounting system (CAS) did not
permit adequate budgetary monitoring and accounting of Federal Aid grants at the project or task
level without requiring the staff to make significant manual calculations. In addition, when such
calculations were made, the information that the staff produced was not always provided to
individuals monitoring the projects. The regulations (43 CFR 12.60(a)(2)) state that fiscal
controls and accounting procedures of the State must be sufficient to permit the tracing of funds
to a level of expenditures adequate to establish that such funds have not been used in violation of
the restrictions and prohibitions of applicable statutes.

        According to the working papers, although CAS had the ability to account for costs at the
project level, the system needed to be restructured to incorporate more specific account
descriptors in order for it to be flexible enough to conform to all Federal Aid grant budget and
cost element levels, for it to still summarize total costs, and for users to be able to compare actual
costs to budgetary limitations by project and grant. The inability of CAS to make these
comparisons, according to the working papers, resulted in the following:

       •   The Division had to use manual calculations to obtain the information needed to
           adequately monitor and report on grant revenues and expenditures and then provide
           this information to individuals responsible for monitoring the grant projects.
           However, it appears the information was not provided in a timely manner to grant
           staff. The working papers concluded that the primary reason the Division reopened
           the grants noted in Finding C.2. “Claims Against Closed Grants” may have been
           because the Division noted after the fact that not all eligible costs had been claimed
           against the two grants.

       •   The auditors could not determine whether license revenues were used only for fish
           and wildlife activities because the Division’s disbursement system did not identify
           the funding source used for individual expenses. The regulations (50 CFR 80.4) state
           that revenues from hunting and fishing license fees are to be used only for the
           administration of the state fish and wildlife agency. The Division collected revenues
           from various sources including license fees, fines, and penalties, Coast Guard funds
           and boating registration, among others, which were deposited into the same account.
           Furthermore, the Division did not track expenditures from the account to the various
           revenue sources. We were unable to determine from the working papers whether
           license revenues were used inappropriately. The auditors indicated, however, that
           they did not believe license revenues were used for ineligible activities because of the
           amount of unrestricted funds received by the Division.



                                                 16
        2. Accounting Adjustments. The working papers indicated that the Division did not
adequately document and justify accounting adjustments that impacted Federal Aid grants.
According to the working papers, the Division prepares a monthly report listing all adjusting
entries made during each month but does not have a year-end report summarizing these entries.
In addition, adjusting entry justifications were not included on the monthly report and often were
not identified on the adjusting entry form. Based on OMB Circular A-87, Attachment A and on
43 CFR 12.60 (as noted above), the Division should adequately document and justify the reason
for and amount of adjustments impacting Federal grants to help avoid misuse of Federal funds
and to permit effective internal and external monitoring.

Recommendation

       We recommend that FWS ensure that the Division corrects the deficiencies in its
accounting system.

Division and U.S. Fish and Wildlife Service Responses

        The Division’s response identified several actions that have been taken to improve its
cost accounting system. Division officials stated that beginning in 2001, the Division updated
the Cost Accounting System account codes to include a funding source designation for each
project. The Division’s response also stated, “Projects are planned in advance during the budget
process, coordinated and submitted by Bureau Chiefs, and if applicable, …approved by the
Administrator. All projects are identified by funding source and documented on (1) the agency’s
Delegation of Expenditure Authority …and (2) the Cost Accounting System.”

        Regarding the accounting adjustments, Division officials stated that adjustments in the
Cost Accounting System are normally made only for keypunch errors found upon reconciliation
to the State Accounting System. Division officials added that occasionally, a purchase order is
coded inaccurately at which time a journal entry is prepared. The officials stated that, “A
directive was issued to staff on [September 2, 2002] to include a reason on all journal entries, to
obtain approval, and to include supporting documentation.”

      FWS concurred with the finding and recommendation stating, “The State provided
documentation that specifically addresses the finding. No further action is necessary.”

Office of Inspector General Comments

       The Department’s responses adequately addressed the deficiencies in the accounting
system with one exception. The response did not include sufficient information for us to
determine whether the changes in the system and the new account codes will ensure that license
revenues and related expenditures are used only for eligible purposes. Therefore we consider the
recommendation unresolved.




                                                 17
        In accordance with the Departmental Manual (360 DM 5.3), please provide us with
written comments May 30, 2003 regarding the status of the Corrective Action Plan. If you have
any questions regarding this report, please contact Mr. Gary Dail, Federal Assistance Audit
Coordinator, as (703) 487-8011.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by, anyone who is not cognizant
of the procedures that were applied or who agreed to the sufficiency of those procedures.

cc: Regional Director, Region 1
      U.S. Fish and Wildlife Service




                                                18
                                                                 APPENDIX 1
                                                                   Page 1 of 3

    STATE OF NEVADA DEPARTMENT OF CONSERVATION
     AND NATURAL RESOURCES, DIVISION OF WILDLIFE,
       FINANCIAL SCHEDULE OF REVIEW COVERAGE
        FISCAL YEARS ENDING JUNE 30, 1997 AND 1998

                Grant       Amount       Questioned    Federal
                                                                   Notes
Grant Number   Amount       Claimed        Costs        Share
FW-3-T-15        $518,389     $382,850
FW-3-T-16         727,897      587,021
FW-3-T-17         713,422      757,276
FW-4-D-2          948,640      827,479
FW-4-D-3        1,343,135    1,010,483
FW-4-D-4        1,003,361    1,098,312        $5,094      $3,821      C-3a
FW-5-P-1           16,000       86,866
FW-6-P-1          278,400      305,475
FW-7-P-1           42,400       49,796
FW-19-L-1         820,000      822,090
W-48-R-27       1,808,952    1,675,884        68,830      51,623       C-2
W-48-R-28       1,801,682    1,771,220           930         698      C-3b
W-48-R-29       1,915,500    1,929,746           979         734      C-3a
W-51-HS-25        421,627      334,474
W-51-HS-26        421,200      347,051        14,274      10,706      C-3a
W-51-HS-27        420,700      527,870        29,289      21,967      C-3a
W-54-C-21         102,041       73,587
W-54-C-22         106,226      112,641
W-54-C-23         130,000      141,534
W-58-D-7          432,946      481,694
W-58-D-8          646,408      590,006       290,781     218,086       C-2
   Same                 -            -           239         179      C-3a
W-58-D-9          450,000      475,249
W-60-D-1          375,000      374,999
W-61-D-1          102,792      102,331
W-61-HSD-5         61,762       61,761
F-20-31         1,342,364    1,447,047
F-20-32         1,629,100    1,441,376       209,206     156,905       C-1
   Same                 -            -        10,562       7,922      C-3a
   Same                 -            -           961         721      C-3b
F-20-33         1,640,334    1,334,941       308,602     231,452       C-1
   Same                 -            -         9,670       7,253      C-3a
   Same                 -            -        23,744      17,808       C-4
F-27-B-1          432,657      432,657
F-27-B-5          885,000      158,299


                                 19
                                                               APPENDIX 1
                                                                 Page 2 of 3

    STATE OF NEVADA DEPARTMENT OF CONSERVATION
     AND NATURAL RESOURCES, DIVISION OF WILDLIFE,
       FINANCIAL SCHEDULE OF REVIEW COVERAGE
        FISCAL YEARS ENDING JUNE 30, 1997 AND 1998
                 Grant      Amount     Questioned    Federal
                                                                 Notes
Grant Number    Amount     Claimed       Costs        Share
F-27-B-7           100,000      65,829
F-27-B-8            75,000      15,578
F-27-B-9            90,000      83,851
F-27-B-18           43,000      60,241
F-27-B-19        1,555,000   1,077,013
F-27-B-20          130,000      33,956
F-27-B-22           54,675      36,262
F-27-B-23           60,000      58,245
F-27-B-24           90,000      25,554
F-27-B-25           50,000      29,967
F-27-B-26           40,000      28,422
F-27-B-27          150,000     214,396
F-27-B-28          127,000     210,805
F-27-B-29           34,220      14,745
F-30-AE-7          285,206     331,085
F-30-AE-8          403,734     358,651      13,992      10,494   C-3a
F-30-AE-9          376,912     423,615      22,737      17,053   C-3a
F-32-D-5         1,436,551   1,444,862
F-32-D-6         1,603,784   1,552,381
F-32-D-7         1,585,290   1,626,932
F-33-R-2            20,000      20,000
F-33-R-3            20,000      20,000
F-33-R-4            20,000      20,000
E-1-10             105,680     105,680
E-1-11             130,000      86,460
E-1-12             130,000     145,411
E-1-13             170,833     182,066
EW-2-4              48,500      82,879
EW-2-6             138,500     107,422
EW-2-7              11,000      11,080
P1D1                 7,500      15,000
P1D2                13,025      14,641
V-1-1               16,000      16,000
       Total   $30,659,345 $28,261,044  $1,009,890    $757,422



                                 20
                                                                                  APPENDIX 1
                                                                                    Page 3 of 3


         STATE OF NEVADA DEPARTMENT OF CONSERVATION
          AND NATURAL RESOURCES, DIVISION OF WILDLIFE
            FINANCIAL SCHEDULE OF REVIEW COVERAGE
             FISCAL YEARS ENDING JUNE 30, 1997 AND 1998

Explanatory Notes:

C-1. Costs of $517,808 were questioned because the Division had made cumulative transfers
totaling in excess of 10 percent of the grant amount among grant projects without first obtaining
FWS approval. Included within the $517,808 was $195,770 claimed for unbudgeted/unapproved
projects (see Questioned Costs, C.1).

C-2. Costs of $359,611 were questioned because the grants were closed for additional Division
claims (see Questioned Costs, C.2).

C-3a. Costs of $106,836 were questioned because the Division claimed indirect costs for in-kind
match contributions (see Questioned Costs, C.3a).

C-3b. Costs of $1,891 were questioned because the Division claimed indirect costs on computer
equipment purchases (see Questioned Costs, C.3b).

C-4. Costs of $23,744 were questioned because the costs were incurred prior to the grant period
(see Questioned Costs, C.4).




                                               21
                                                                                     APPENDIX 2


                                 MANAGEMENT ISSUES

        The audit agency’s working papers indicated that the Division’s assent legislation and its
purchasing and licensing certification systems and related internal controls in effect during fiscal
years 1997 and 1998 were adequate for Federal Aid participation. However, the working papers
also identified the following management issues that the Nevada Department of Conservation
and Natural Resources, Division of Wildlife, and the Fish and Wildlife Service need to address.

A. Asset Management

       The working papers identified the following deficiencies in the data recorded in the
Division’s asset management systems for real property and equipment.

       Real Property. The Code of Federal Regulations (43 CFR 12.71) requires that real
property acquired with Federal funds be used for the originally authorized purpose as long as it is
needed and that the awarding agency is compensated if the land is sold or converted to other
uses. Accordingly, accurate real property records are essential for complying with these
requirements. The working papers concluded that the Division’s system was adequate for
tracking real property, but identified errors and incomplete information for eight of the properties
reviewed. For example, five properties were identified as being owned by the Division but
without identifying the funding source. The entry under “funding source” was either “none” or
“non identified”. For two other properties, the Division was entered as the funding source, but
the “funding ratio” was blank so the specific source(s) of the funding (license revenue, partial
Federal funds, and/or state appropriations) could not be readily determined.

        Equipment. The “State of Nevada Accounting Policies and Procedures, Subject: Fixed
Assets” required that the Division identify the source of funding, including Federal grants, for all
equipment. The working papers indicated that the Division’s Fixed Asset Inventory Report
identified the funding source as either state or Federal Aid, but that in some cases, the
designation was incorrect. For example, the working papers indicated that four vehicles
identified as funded with Federal Aid were acquired with state funds and one vehicle identified
as state funded was acquired with Federal Aid funds. Also, the inventory report did not include
a description or cost of the property.

B. Grant Compliance.

       The working papers identified the following deficiencies in the Division’s compliance
with grant requirements.

       •   Although the Division identified and reported program income associated with grants
           W-48-R-28, F-32-D-6, and FW-4-D-3, the working papers noted that the Division
           had not included in its grant proposals an estimated amount of program income. The


                                                 22
           Federal Aid Manual, Part 522.1.4C requires the Division to identify estimated
           program income in its grant proposals and related grant agreements. This information
           allows FWS to ensure that revenue-generating activities are proper uses of Federal
           Aid lands, the estimated revenues are considered in determining the amount of the
           grant, and program income is reported on the Financial Status Report.

       •   The Division did not ensure that the Nevada Division of State Parks complied with
           provisions in a Memorandum of Understanding to identify and use the portion of fees
           charged at state parks related to Federal Aid sponsored projects (boating access ramps
           primarily) to offset operation and maintenance costs at those facilities. According to
           the working papers, Parks did not separately identify fees related to Federal Aid
           projects and used all revenue generated for operation and maintenance of all state
           parks. Therefore, the auditors could not identify the amount of fees collected that
           related to specific Federal Aid projects but estimated the total possible impact was
           negligible. Therefore, no costs were questioned.

       •   Interviews with Division employees responsible for grant monitoring indicated that
           some employees may not be effectively monitoring project performance because they
           did not have access to current accounting reports or any accounting reports and/or
           could not understand the accounting reports they received. The Code of Federal
           Regulations (43 CFR 12.80(a)) requires grantees to “monitor grant and subgrant
           supported activities to assure compliance with applicable Federal requirements and
           that performance goals are being achieved.”

       •   The Division submitted the majority of its FY 1997 final Financial Status Reports
           more than 1 month later than the FWS-approved extension of time to file. According
           to the regulations (43 CFR 12.81(b)(4)), the final reports are to be submitted 90 days
           after the expiration or termination of grant support, in this case by September 28.
           However the Division requested a time extension to December 15, 1997, but did not
           submit the reports until January 28, 1998.

       •   The Division had not developed formal written guidance for the use of employees
           responsible for preparing applications for Federal Aid grants.

C. Drawdowns

       The Division made interim draws against Federal Aid grants using the value of in-kind
contributions to meet matching requirements before receiving adequate documentation
supporting the in-kind values. According to the Code of Federal Regulations (43 CFR
12.64(b)(6)), the value of such contributions must be verifiable from the grantee’s records and
are subject to the same documentation requirements used to support the allocability of regular
personnel costs. For example, the Division historically used in-kind voluntary contributions to
meet 100 percent of the matching requirements for the hunter and aquatic education programs
and made monthly draws assuming the contributions had occurred. However, the Division did
not obtain detailed support for the voluntary in-kind contributions for these education programs



                                               23
until the end of the fiscal year. If the full amount of the expected in-kind contributions had not
occurred, this practice could result in the Division receiving inappropriate advance payments
resulting in lost interest to the Federal government. The working papers indicated that a
Department administrator said the in-kind match calculation procedures had been revised to
correct this issue.

Division Response and Office of Inspector General Comments

        The Division’s response identified several actions that had been taken to address these
management issues. The FWS should ensure that these actions are sufficient to address these
issues.




                                                 24
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
